No. ______
In the

Supreme Court of the United States
__________________
FIRST STATE COMMUNITY ACTION AGENCY,
Petitioner,
v.
TAMRA N. ROBINSON,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
TASHA MARIE STEVENS
Counsel of Record
FUQUA, WILLARD,
STEVENS & SCHAB, P.A.
26 The Circle
Georgetown, DE 19947
(302) 856-7777
tasha@fwsslaw.com
Counsel for Petitioner
JULY 26, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether a party that first raises an issue on
appeal has per se waived plain error review because it
did not raise the issue in the trial court or in post-trial
briefing though the Circuit has ruled that the
correction of legal issues are the function of the
appellate court?
2. Whether the joint approval of erroneous jury
instructions is invited error that is a per se waiver to
plain error review? In diverting from this Court’s
prior precedent in United States v. Olano, and in
conflict with the Ninth Circuit, the Third Circuit in its
precedential decision joins the Fourth Circuit in ruling
that approval of erroneous jury instructions is invited
error, and therefore waiver not reviewable under plain
error.

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption.
The petitioner is a nongovernmental
corporation. The petitioner does not have a parent
corporation or shares held by a publicly traded
company.
RULE 14.1(b)(iii) STATEMENT
The proceedings below in federal trial and appellate
courts identified below are directly related to the
above-captioned case in this Court.
Tamra Robinson v. First State Community Action
Agency, Civil Action No.: 1:14-cv-01205-RGA (D.Del.)
The District of Delaware entered judgment in this
matter on August 29, 2017.
First State Community Action Agency v. Tamra
Robinson, Case No.: 17-3141 (3rd Cir.). The Third
Circuit entered judgment in a precedential opinion in
this matter on April 1, 2019. The Third Circuit denied
Petitioner’s combined petition for panel rehearing and
rehearing en banc on April 30, 2019.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . ii
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 1
INTRODUCTION AND STATEMENT OF
THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . 6
I. This Court should reject the Third Circuit’s
imposition of an absolute bar to relief from legal
error because the error is first raised in the
appellate court as being an unjustified exclusion
of plain error that conflicts with the standard set
in United States v. Olano . . . . . . . . . . . . . . . . . . . 7
II. This Court should reject the viability of the
“invited error” doctrine in plain error review
because it excuses the waiver analysis
requirement of Olano in favor of the per se
assignment of waiver . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

iv
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(April 1, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court for the
District of Delaware
(August 29, 2017) . . . . . . . . . . . . App. 21
Appendix C Judgment in the United States
District Court for the District of
Delaware
(December 8, 2016) . . . . . . . . . . . App. 40
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Third Circuit
(April 30, 2019) . . . . . . . . . . . . . . App. 42

v
TABLE OF AUTHORITIES
CASES
American Ins. Co. v. Vann,
118 F.2d 1004 (4th Cir. 1941). . . . . . . . . . . . . . . 15
Herman v. Hess Oil Virgin Islands Corp.,
524 F.2d 767 (3d Cir. 1975) . . . . . . . . . . . . . . . . 12
Hibbard v. Penn-Trafford Sch. Dist.,
621 Fed. Appx. 718 (3d Cir. 2015) . . . . . . . . . . . 10
Hormel v. Helvering,
312 U.S. 552 (1941). . . . . . . . . . . . . . . . . . . . . . . . 7
Martinez-McBean v. Gov’t of V.I.,
52 F.2d 908 (3d Cir. 1977) . . . . . . . . . . . . . . . . . 10
Puckett v. United States,
556 U.S. 129 (2009). . . . . . . . . . . . . . . . . . . . . 9, 16
United States v. Console,
13 F.3d 641 (3d Cir. 1993) . . . . . . . . . . . . . . . . . 12
United States v. Ellis,
1999 U.S. App. LEXIS 2690 (4th Cir. 1999) . . . 15
United States v. Marcus,
560 U.S. 258 (2010). . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Olano,
507 U.S. 725 (1993). . . . . . . . . . . . . . . . . . . passim
United States v. Ozcelik,
527 F.3d 88 (3d Cir. 2008) . . . . . . . . . . . . . . . . . 14
United States v. Perez,
116 F.3d 840 (9th Cir. 1997). . . . . . . . . . . . . . . . 13

vi
United States v. Wasserson,
418 F.3d 225 (3d Cir. 2005) . . . . . . . . . . . . . . . . 10
United States v. West Indies Transp.,
127 F.3d 299 (3d Cir. 1997) . . . . . . . . . . . . . . . . 12
United States v. Young,
470 U.S. 1 (1985). . . . . . . . . . . . . . . . . . . . . . . . . 16
Virgin Islands v. Rosa,
399 F.3d 283 (3d Cir. 2003) . . . . . . . . . . . . . 13, 14
Williams v. Philadelphia Housing Authority
Police Dept., 380 F.3d 751 (3d Cir. 2004). . . . . . 12
Wilson v. Lindler,
995 F.2d 1256 (4th Cir. 1993). . . . . . . . . . . . 14, 15
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2101(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 12102(1)(C) . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12102(1)(C)(3) . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12111(2). . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12201(h). . . . . . . . . . . . . . . . . . . . . . . . 1, 3

1
First State Community Action Agency respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Third
Circuit in this case.
OPINIONS BELOW
The Rule 36 disposition, a precedential opinion of
the court of appeals (App. 1-20) is reported at 920 F.3d
182 (3d Cir. 2019). The opinion of the district court
denying a new trial and granting attorney’s fees (App.
21-38), is reported at 2017 U.S. Dist. LEXIS 138625.
JURISDICTION
The judgment of the court of appeals was entered on
April 1, 2019. (App. 1-20)
A timely petition for
rehearing was denied on April 30, 2019. (App. 42-43)
This Petition for Writ of Certiorari is filed within
ninety days of that date. 28 U.S.C. § 2101(c). The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
42 U.S.C. § 12201(h)
A covered entity under subchapter I, a public
entity under subchapter II, and any person who
owns, leases (or leases to), or operates a place of
public accommodation under subchapter III,
need not provide a reasonable accommodation or
a reasonable modification to policies, practices,
or procedures to an individual who meets the
definition of disability in section 12102(1) of this

2
title solely under subparagraph (C) of such
section.
42 U.S.C. § 12111(2)
Covered entity. The term ‘covered entity’ means
an employer, employment agency, labor
organization, or joint labor-management
committee.
42 U.S.C. § 12102(1)(C)
(1) Disability. The term “disability” means, with
respect to an individual—(C) being regarded as
having such an impairment (as described in
paragraph 3).
42 U.S.C. § 12102(1)(C)(3)
(3) Regarded as having such an impairment. For
purposes of paragraph (1)(C):
(A) An individual meets the requirement of
"being regarded as having such an impairment"
if the individual establishes that he or she has
been subjected to an action prohibited under this
Act because of an actual or perceived physical or
mental impairment whether or not the
impairment limits or is perceived to limit a
major life activity.
(B) Paragraph (1)(C) shall not apply to
impairments that are transitory and minor. A
transitory impairment is an impairment with an
actual or expected duration of 6 months or less.

3
INTRODUCTION AND
STATEMENT OF THE CASE
Respondent, Tamra Robinson (“Robinson”) was
employed by Petitioner, First State Community Action
Agency, Inc. (“First State”) from 2009 to 2012. In
2014, Robinson sued First State for violating the
Americans with Disabilities Act (“ADA”) claiming that
First State did not provide her a reasonable
accommodation for dyslexia and that it instead
terminated her because she was dyslexic. Robinson
relied upon an evaluation report that was authored by
Robinson’s cousin, Dr. Parker; the report did not in fact
diagnose Robinson with dyslexia and in deposition,
Parker admitted that she was a school psychologist and
not qualified to diagnose dyslexia.
In Summer of 2016, in order to avoid summary
judgment because of the challenge to the proffered
expert report, Robinson asserted in briefing that First
State regarded her as dyslexic and she could also
proceed with her claims as a “regarded as” disabled
person. Summary judgment was accordingly denied.
The case continued, and at the Pretrial Conference on
November 18, 2016, the Court ruled that Robinson’s
expert report was not admissible to prove that she had
dyslexia. The lack of evidence of dyslexia foreclosed
Robinson’s ability to proceed based on her actually
being dyslexic, so at that point, her claims were only
based on her being “regarded as” dyslexic.
Unbeknownst to the parties, in 2008 the ADA was
amended, renamed the Americans with Disabilities Act
as Amended (“ADAAA”), and a provision at 42 U.S.C.
§ 12201(h) was added to exempt certain groups,

4
including employers, from its requirement to provide a
reasonable accommodation to an individual who is
“regarded as” disabled. So, Robinson’s reasonable
accommodation claim, which was only based on her
being “regarded as” dyslexic by First State was
abrogated by statute. The parties utilized the Third
Circuit Model Jury Instructions and jointly fashioned
and agreed to the jury instructions on Tamra N.
Robinson’s “disregarded as” reasonable accommodation
claim. Those instructions were not updated to reflect
the statutory amendment on “regarded as” claimants.
On December 5, 2016, Robinson presented two
claims to the jury: 1) First State terminated her
because she was “regarded as” dyslexic and 2) it failed
to provide her a reasonable accommodation by failing
to engage in the interactive process. The jury followed
the law as misstated in the instructions provided and
awarded Robinson $22,501.00 for nominal and punitive
damages. (App. 40-41) Defendant moved for a new trial
for irregularities in the trial. On August 29, 2017, the
District Court denied the Motion and awarded
Robinson attorney’s fees and costs of $ 135,452.26.
(App. 21-38)
First State timely filed an appeal in the Court of
Appeals for the Third Circuit. It asserted that the
claim for which Robinson was awarded damages and
attorney’s fees was not a legally cognizable claim due
to a statutory amendment of the ADAAA that
exempted employers from the obligation to provide
reasonable accommodations to claimants that are only
“regarded as” disabled. Having not known of the issue
a trial, Petitioner sought review under the doctrine of

5
plain error. First State identified the issue on appeal,
presented a motion for summary reversal based
thereon, then fully briefed the issue and submitted
supplemental letter briefing as required by the court.
On April 1, 2019, the Court of Appeals affirmed the
$157,953.26 judgment against First State, despite the
fact that the actions for which the jury found it liable
to Robinson were not unlawful. (App. 1-20) In its
Precedential Opinion, it identified two per se rules of
waiver that would automatically foreclose plain error
review in the Third Circuit. (App. 13-14) The first: the
failure of an appellant to raise an objection at trial and
to include such objection in post-trial briefing is a per
se waiver of plain error review. The second: the joint
recommendation of a jury instruction by a party is a
per se waiver of plain error review of that instruction.
The Court of Appeals acknowledged the legal error in
Robinson’s theory of recovery and in the jury
instructions. (App. 8) It did not make any finding that
First State knew of the legal error in the flawed
reasonable accommodation claim or in the instructions
that outlined the flawed theory. Neither did it find
that First State intentionally relinquished its right to
challenge the theory and have the law accurately
stated and applied to the claim. Instead, the court
relied on per se waivers to decline plain error review
and deny First State relief from the judgments.
First State brings this petition seeking a writ of
certiorari to the United States Court of Appeals for the
Third Circuit.

6
REASONS FOR GRANTING THE PETITION
This Court should grant this petition based on its
superintendence of the Federal Judiciary in criminal
and civil matters 1) to ensure that it does not apply
unjustified exceptions to the application of plain error
review and accordingly upset the balance that it strikes
between judicial efficiency and the redress of injustice,
and 2) to resolve the conflict between the circuits and
internal certainty within the circuits as to the viability
of the invited error doctrine as it relates to plain error
review.
The Third Circuit’s application of the plain error
standard conflicts with this Court’s interpretation in
that it subverts the requirement to examine whether
there was the intentional relinquishment or
abandonment of a known right by instead applying
rules and doctrine that assign waiver per se and
accordingly foreclose plain error review.
In its
precedential opinion, the Third Circuit applied two per
se rules in order to decline vacating the judgment that
it found to be based on a claim that was not cognizable,
having been abrogated by statute. The first rule:
Issues raised for the first time on appeal are waived.
And, the second: When a party jointly recommends a
jury instruction, it has invited the error and waived
appellate review thereof. The application of these per
se rules of waiver conflict with this court’s ruling in
United States v. Olano, 507 U.S. 725 (1993) and creates
an unjustified bar to relief under plain error review. In
diverting from this Court’s plain error analysis in
Olano, and in conflict with the Ninth Circuit, the Third
Circuit in its precedential opinion joins the Fourth

7
Circuit in ruling that approval of erroneous jury
instructions is invited error, and therefore waiver not
reviewable under plain error.
I. This Court should reject the Third Circuit’s
imposition of an absolute bar to relief from
legal error because the error is first raised in
the appellate court as being an unjustified
exclusion of plain error that conflicts with the
standard set in United States v. Olano.
This Court has recognized that “a rigid and
undeviating judicially declared practice under which
courts of review would invariably under all
circumstances decline to consider all questions which
had not been specifically urged would be out of
harmony with . . . the rules of fundamental justice.”
Hormel v. Helvering, 312 U.S. 552, 557 (1941).
Accordingly, the doctrine of plain error has been
applied to civil and criminal cases to correct legal
errors not preserved in the lower court if the error
affects substantial rights of a party, with the
overarching goal of redressing injustice and preserving
the integrity, fairness, and reputation of the judicial
system. Olano at 732. To that end, this Court
established the frame work for analysis under plain
error review in the criminal context in United States v.
Olano, 507 U.S. 725 (1993). The three prong analysis
starts with the determination of whether there is an
“error,” or a “deviation from a legal rule” that has been
forfeited, not waived. Id. at 733. Forfeiture is “the
failure to make the timely assertion of a right,” and
waiver, “the intentional relinquishment or
abandonment of a known right.” Id. If a court finds a

8
legal error has been waived, the analysis ends, and no
relief is afforded.1
The issues in this case concern the Third Circuit’s
application of the first prong. It found that Robinson’s
theory of recovery was legally flawed as to her
reasonable accommodation claim. (App. 8-9) The ADA
originally entitled individuals that were “regarded as”
disabled to reasonable accommodation of their
disability. Then, in 2008 the ADA was amended
(ADAAA) to exempt employers from the obligation to
provide reasonable accommodation to persons who
were only “regarded as” disabled. So, the theory upon
which the jury awarded recovery was abrogated by
statute, thus erroneous. And, the corresponding jury
instructions were likewise erroneous. (App. 8-9)
Having found legal error, the Court next was to
determine if the error was waived or forfeited. It
examined the record, but not to identify facts pertinent
to First State’s knowledge or lack of knowledge of the
legal error in Robinson’s claim. Instead the Court
picked out opportunities where First State could have
objected to Robinson’s claim in the trial court: 1) in
2016 in briefing on its motion for summary judgment;
2) thereafter, by not taking exceptions when the
magistrate denied First State’s motion for summary
1

The second requires that the error be clear or obvious under the
law at the time of review, and the third prong requires the error
affect substantial rights, also interpreted as being prejudicial,
affecting the outcome of the lower court proceedings. If the three
prongs are met, the appellate short exercises its discretion to grant
relief if the error seriously affects the integrity, fairness, and
reputation of the judicial proceedings. United States v. Olano, 507
U.S. at 734.

9
judgment; 3) at trial during the jury charging
conference while also agreeing to the inclusion of the
erroneous law; and 4) post-trial in briefing. (App. 1013). Robinson first asserted her reliance on being
“regarded as” disabled along with being actually
disabled in her briefing of summary judgment motions
in the Summer of 2016. Then, in November 2016, the
court ruled Robinson’s expert report inadmissible to
prove actual disability. At that point, she could only
proceed on her claims of being “regarded as” disabled.
So these opportunities occurred in an abbreviated
period of time. But, based on First State’s failures, the
court concluded that “[t]his course of conduct evinces
an intent to proceed under Robinson’s “regarded as”
case theory and waive any objection based on the 2008
Amendments.” (App. 13)
This finding of waiver is inconsistent with the
framework of Olano, which requires a finding of 1)
knowledge of the error and 2) intent to relinquish a
right to challenge it. Olano, 507 U.S. at 733. The
Third Circuit points to no such expression or indication
that First State knew of the error in Robinson’s
“regarded as” theory. First State was not aware of the
flaw in the “regarded as theory” when the matter was
before the trial court. It had no motivation or stood to
gain no tactical advantage by not raising the issue and
promptly disposing of the reasonable accommodation
claim as early as possible. See generally Puckett v.
United States, 556 U.S. 129, 134 (2009) (discussion of
importance of timely objections to prevent
“sandbagging”).

10
When First State originally learned of the statutory
abrogation of the claim, the parties were at the
appellate stage, the motion for new trial having already
been decided. At this point, it could file a motion in the
trial court or appeal but learned that a motion to set
aside cannot be utilized to correct error where the issue
can be considered on appeal and ultimately concludes
that “the correction of legal errors committed by the
district courts is the function of the Courts of Appeals.”
Martinez-McBean v. Gov’t of V.I., 52 F.2d 908, 911-12
(3d Cir. 1977). The court had recently cited MartinezMcBean to reiterate the inappropriateness of motions
concerning judgments where the issue can be reviewed
on appeal. Hibbard v. Penn-Trafford Sch. Dist., 621
Fed. Appx. 718, 723 (3d Cir. 2015). So, First State
brought the matter forth on appeal, moved for
summary reversal of the judgment, and thereafter
proceeded with full briefing on appeal.2 The applicable
law in the circuit led First State to present the matter
on appeal instead of addressing it to the court post trial
as the issue was legal error that could be addressed on
appeal under the plain error standard. However, in the
instant case, the Third Circuit set precedent that the
failure to raise the issue in the trial court is a per se
waiver that bars plain error review. In doing so, it
denied First State plain error review, which is the
designed to redress injustice caused by errors not
raised in the trial court, because it did not raise the
2

The Third Circuit requested supplemental briefing as to whether
the failure to raise the issue in the trial court is a waiver as it
decided in United States v. Wasserson, 418 F.3d 225 (3d Cir. 2005),
and First State brought it to the court of appeals attention that the
prior rulings of the court made it clear that a post-trial motion was
not an option.

11
error in the trial court. The Third Circuit’s analysis is
hostile to plain error review and should be rejected by
this Court.
II. This Court should reject the viability of the
“invited error” doctrine in plain error review
because it excuses the waiver analysis
requirement of Olano in favor of the per se
assignment of waiver.
The Third Circuit’s finding that First State waived
plain error review of the jury instructions was
premised on First State’s joint recommendation of the
instruction containing the erroneous law on the
abrogated reasonable accommodation claim in the
prayer conference. In support of its denial of plain error
review, the court points to First State’s statement that
“it would be simpler if the accommodation claim is
included.” (App. 12) This statement does not support
a finding of waiver under Olano. To find a waiver of
the error, the court needed to find that First State
knew of the misstatement of law in the jury
instructions on reasonable accommodations and
intended to relinquish its right to waive any challenge
to them. The exchange during the prayer conference
that is detailed in the Opinion does not meet that
standard. The quoted excerpt is part of a larger
discussion where Robinson is explaining its reasonable
accommodation claim to the court and requesting it be
presented in the instructions in one step, or test, as
opposed to two. (App. 12-3 n.32) First State agrees
that the reasonable accommodation claim should be
included in one test as opposed to set out in two
separate tests. In that exchange, both parties are

12
referring to the test set forth in Williams v.
Philadelphia Housing Authority Police Dept., 380 F.3d
751, 775 (3d Cir. 2004), which they believed expressed
the applicable law on reasonable accommodation claims
for “regarded as” disability. To further support that
First State and Robinson were not aware of the change
in the law, the Model Civil Jury Instruction for the
District Courts of the Third Circuit, which the parties
utilized in crafting the instruction, did not reflect the
2008 Amendments and also contained the erroneous
theory of Robinson reasonable accommodation claim.3
In categorically denying plain error review of jointly
recommended jury instruction, the court interjects the
“invited error” doctrine, which absolutely forecloses
appellate review of error for the party that caused the
error. There is a split in the holdings of the Third,
Fourth, and Ninth Circuits on this issue. The “invited
error” preclusion in the Third Circuit dates back to at
least 1975 when in the civil case Herman v. Hess Oil
Virgin Islands Corp., it determined that invited error
could not be the basis for reversal. 524 F.2d 767, 772
(3d Cir. 1975)). This court continued in that vein in
criminal case, United States v. Console, 13 F.3d 641 (3d
Cir. 1993) and it has continued to apply this
interpretation across the board to civil and criminal
proceedings even after the decision in Olano.4
3

The court was aware of the parties’ use of the instructions and
devoted a portion of the opinion to address the parties’ reliance
thereon. (App. 14-16)

4

See United States v. West Indies Transp., 127 F.3d 299, 311 (3d
Cir. 1997) (When the defendants raised the jury instruction as
fatally deficient, the court noted their proposed jury instruction

13
The Ninth Circuit followed a similar rule until
Olano prompted it to examine the continued viability
of its “invited error” doctrine. The Ninth Circuit en
banc undertook that examination in United States v.
Perez and noted that Olano does not expressly address
the concept of invited error in its framework, but
concluded that because it delineates forfeited and
waived rights, any application of the doctrine must
conform to that analysis. 116 F.3d 840, 845 (9th Cir.
1997)(en banc). So, while it did not find that Olano
overruled the doctrine of invited error in its entirety, it
resolved that it cannot solely focus on whether the
party induced or caused the error but must determine
whether the party knew of the right and relinquished
it. Id.
In 2003 the Third Circuit followed the Ninth
Circuit’s rationale in Perez when it decided Virgin
Islands v. Rosa, a case where the Defendant failed to
object to jury instructions containing erroneous law
and stipulated to those instructions on three different
occasions. 399 F.3d 283, 291(3d Cir. 2003). The
question considered was “whether the defendant who
failed to object in the trial court to an error that
violated his rights was aware of the abandoned right.”
Id. at 291 citing Perez, supra at 845. It determined
that if Rosa had that knowledge yet chose to abandon
the right, his failure to object was a waiver that
foreclosed his right to an appeal under the plain error
standard. Rosa, supra at 291. This Court further
concluded that an explicit agreement or stipulation
made no mention of the "harbor lines" element. "’Thus, if there was
any error at all, it was ‘invited error’ and cannot now be a basis for
reversal.’" (citations omitted)).

14
constitutes a waiver only if the defendant was aware of
the right. Id. (emphasis added) After its review of the
facts, the Court found that Rosa’s failure to object to
and his repeated agreement to erroneous instructions
was not a waiver because there was not “any indication
that his counsel explicitly stipulated to the erroneous
instructions with knowledge of the error in them or
refrained from objecting to the jury instructions for
tactical reasons.” Rosa, 399 F.2d at 291. The court
was satisfied that Rosa’s counsel was either unaware
of the correct rule of law or did not realize that it was
misstated. Id. Rosa’s right was therefore deemed
forfeited, not waived, and the remaining prongs of the
plain error analysis applied.
However, thereafter, the Third Circuit reverted to
its interpretation that invited error foreclosed plain
error review and decided its cases accordingly. In
United States v. Ozcelik, the court declined review of
two jury instructions because the Defendant “made a
joint request in favor of the very instructions he now
challenges, he waived his right to raise these
instructional issues on appeal under the invited error
doctrine.” 527 F.3d 88, 97 n.6 (3d Cir. 2008) (citations
omitted). Then, in its precedential opinion in this case,
the Third Circuit solidified its long held pre-Olano
position that “when a party jointly recommends a jury
instruction, it cannot later complain about that very
instruction.” (App. 13) The Fourth Circuit agrees with
the Third Circuit. It has persisted with its application
of invited error to foreclose plain error in every
instance in accordance with its long history and
adherence to the binding law of the Circuit. Wilson v.

15
Lindler, 995 F.2d 1256 (4th Cir. 1993)(en banc).5
Applying this interpretation, legal errors that would
otherwise merit relief under plain error review are
automatically denied consideration, and the resulting
injustices left uncorrected.
CONCLUSION
The Third Circuit already found that the “regarded
as” reasonable accommodation claim was error when it
analyzed the amendment to the ADA that exempted
employers from the obligation to provide a reasonable
accommodation and abrogated Robinson’s claim. It
follows that the error was plain because in comparison
to the applicable law, or the ADAAA, the claim was no
longer cognizable. The Third Circuit did not identify
facts to support that First State knew of the erroneous
theory or instructions and intended to waive a
5

The Court identifies its position and history in United States v.
Ellis, 1999 U.S. App. LEXIS 2690 at p. *16-17 (4th Cir. 1999).:
This Court has repeatedly stated that “we have never held
in this court that an appeal may lie from an invited error.”
AG Systems, Inc. v. United Decorative Plastics Corp., 55
F.3d 970, 972 (4th Cir. 1995) (citing United States v.
Herrera, 23 F.3d 74, 75 (4th Cir. 1994); Wilson, 8 F.3d 173;
American Ins. Co. v. Vann, 118 F.2d 1004, 1005 (4th Cir.
1941) (per curiam); 9A Wright & Miller, Federal Practice
and Procedure § 2558, at 470-71 (1995)). Heretofore, we
have applied the invited error rule without exception, and
we are now foreclosed from changing course. See
Industrial Turnaround Corp. v. NLRB, 115 F.3d 248, 254
(4th Cir. 1997) (“A decision of a panel of this court becomes
the law of the circuit and is binding on other panels unless
it is overruled by a subsequent en banc opinion of this
court or a superseding contrary decision of the Supreme
Court.” (internal quotation marks omitted)).

16
challenge to it. So, if it proceeded according to Olano,
it would be left to decide if the error was prejudicial, or
affected substantial rights, or the outcome of the trial.
In this case, the error affected the outcome of the case
as it was the only basis for the theory upon which the
jury found discrimination and imposed nominal
damages, punitive damages, attorney’s fees, and costs
that amounted to a considerable financial judgment of
over $150,000.00 against First State. The outcome of
the case would have been different in that there would
be no reasonable accommodation claim, thus no finding
of discrimination and no financial liability. Having met
the three prongs of the plain error standard, the court
should exercise its discretion to vacate the judgment
because First State having legal finding of
discrimination and judgment of considerable damages
for not providing a reasonable accommodation to
someone that was not legally entitled to it in spite of
appeal seriously affects the fairness, integrity and
public reputation of judicial proceedings.
This Court has “repeated cautioned that ‘any
unwarranted extension’ of the authority granted by
Rule 52(b) would disturb the careful balance it strikes
between judicial efficiency and the redress of
injustice…and that the creation of an unjustified
exception to the Rule would be even less appropriate.”
Puckett v. United States, 556 U.S. 129, 135-6 (citations
omitted). It has consistently rejected per se approaches
and variations to plain error review as being flawed.
See United States v. Young, 470 U.S. 1 at 17, n. 14
(1985); See United States v. Marcus, 560 U.S. 258, 266
(2010). In both criminal or civil proceedings, the Third
Circuit’s application of the rule automatically

17
disqualifies every party 1) that first raises its challenge
to appellate court, and 2) that jointly recommends a
jury instruction from a plain error challenge even if
they did not know of its erroneous nature. This Court
should reject these per se rules in favor of maintaining
the balance preserved by the framework established in
Olano.
Respectfully submitted,
TASHA MARIE STEVENS
Counsel of Record
FUQUA, WILLARD, STEVENS & SCHAB, P.A.
26 The Circle
Georgetown, DE 19947
(302) 856-7777
tasha@fwsslaw.com
Counsel for Petitioner

